                                      SOCIAL SECURITY
MEMORANDUM
Date:   June 4, 2003                                                      Refer To:

To:     Beatrice M. Disman
        Regional Commissioner
         for New York

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the New York Disability Determination Division
        (A-15-00-20053)


        The attached final report presents the results of our audit. Our objectives were to
        evaluate the New York Disability Determination Divisions’ internal controls over the
        accounting and reporting of administrative costs to determine if the costs claimed are
        allowable and properly allocated and to determine if the aggregate of the Social Security
        Administration funds drawn down agreed with total expenditures for the audit period.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me at (410) 965-9700.




                                                       S
                                                       Steven L. Schaeffer

        Attachment

        cc:
        David Avenius
        Lenore R. Carlson
        Jeff Hild
        Candace Skurnik
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



        ADMINISTRATIVE
      COSTS CLAIMED BY THE
      NEW YORK DISABILITY
     DETERMINATION DIVISION

     May 2003   A-15-00-20053




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                 Executive Summary
OBJECTIVES
The objectives of our audit of the New York Disability Determination Division
(NY-DDD) were to:

  •   evaluate internal controls over the accounting and reporting of the administrative
      costs claimed, as well as the draw down of Social Security Administration (SSA)
      funds;

  •   determine whether costs claimed on the State Agency Report of Obligations for
      SSA Disability Programs (Form SSA-4513) for the period October 1, 1997 through
      September 30, 1999, were allowable and properly allocated; and

  •   determine if the aggregate of the SSA funds drawn down agreed with total
      authorized expenditures of the NY-DDD for the Fiscal Years (FY) 1998 through
      1999.

BACKGROUND

The Disability Insurance (DI) program is designed to provide benefits to wage earners
and their families in the event the wage earner becomes disabled. The Supplemental
Security Income (SSI) program provides a nationally uniform program of income to
financially needy individuals who are aged, blind and/or disabled.

SSA is primarily responsible for implementing the general policies governing the
development of the disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by an agency in each State or
other responsible jurisdiction according to Federal regulations. In carrying out its
obligation, each State agency (SA) is responsible for determining claimants’ disabilities
and ensuring that adequate evidence is available to support its determinations. To
assist in making proper disability determinations, each SA is authorized by SSA to
purchase medical examinations, x-rays and laboratory tests on a consultative basis to
supplement evidence obtained from the claimants’ physicians or other treating sources.

SSA pays the SA for 100 percent of allowable expenditures. Each year, SSA approves
the SA’s Disability Determination Services’ budget. Once approved, the SA withdraws
Federal funds through the U.S. Department of the Treasury’s (Treasury) Automated
Standard Application for Payments System for this purpose. At the end of each quarter
of the Federal FY, each SA submits to SSA a Form SSA-4513 to account for program
disbursements and unliquidated obligations. As of the reporting period ended
December 31, 1999, NY-DDD obligated costs of $281,397,817 on its Form SSA-4513
for the 2 FYs starting October 1, 1997 through September 30, 1999. Our audit



Administrative Costs Claimed by the New York DDD (A-15-00-20053)                           i
coverage included subsequent financial activities affecting these FYs as reported
through June 30, 2002.

RESULTS OF REVIEW
NY-DDD claimed total obligated costs of $281,397,817 million for the 2 FYs under audit
as of December 31, 1999. The results of our substantive testing disclosed that in
general, claim amounts reported as disbursed were allowable and properly allocated.
However, our review of reporting practices disclosed that NY-DDD could not support
unliquidated amounts reported on the quarterly Form SSA-4513s. We determined that
the New York Office of Temporary and Disability Assistance’s (NY-OTDA) reporting of
obligations only served to misstate reported obligations, giving the appearance that
NY-DDD was within its approved cumulative budget authorization when in FY 1998
obligations exceeded budget authorization by $2.2 million. We further determined that
this practice resulted in a lost opportunity cost to NY-DDD to fully recover all reported
reimbursable costs for FY 1998 incurred under SSA’s disability programs. While similar
reporting concerns occurred for FY 1999 also, NY-DDD remained within the SSA
authorized budget. In FY 1999, this practice earmarked funds as being obligated when
they should have been de-obligated.

Our audit also disclosed conditions which require: (i) reclassifying certain
disbursements in appropriate FYs, (ii) correcting obligation amounts reported for indirect
costs, (iii) instituting additional controls to ensure disbursements are reported
accurately, and (iv) maintaining inventory controls over SSA provided intelligent
workstation (IWS)/local area network (LAN) equipment.

CONCLUSIONS AND RECOMMENDATIONS

We concluded the NY-DDD generally maintained documentation to support claimed
disbursements, and for the most part, such disbursements were both allowable and
properly allocated between FY appropriations. However, management’s efforts need to
be focused on eliminating deviations in reporting practices and improving certain
accounting controls. We recommend the Regional Commissioner:

•   Require NY-OTDA to follow specific guidelines in the Program Operations Manual
    System DI 38506.210 for reporting the status of all unliquidated obligations.
    Accordingly, eliminate negative unliquidated obligation entries totaling $3,316,665
    ($3,193,607 in FY 1998 and $123,058 in FY 1999) from the SSA Form-4513 reports
    for reporting quarter ended December 31, 1999 and report zeros in their place.

•   Require NY-OTDA to eliminate unsupported positive unliquidated obligations from
    Form SSA-4513 Report and decrease budget authority to recognize obligations that
    are not valid in the amount of $4,399,192 ($975,961 in FY 1998 and $3,423,231 in
    FY 1999).




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                        ii
•   Require NY-OTDA to discontinue the use of unsupported adjustments in preparing
    the Form SSA-4513 report.

•   Require NY-OTDA to implement a record keeping system, which would provide for
    accumulating and updating valid obligations for Medical Evidence of Records,
    Consultative Examinations, and all other non-personnel costs.

•   Provide necessary documentation to support that funding will be available to meet
    final expenditure amounts for FY 98.

•   Instruct NY-OTDA to reduce reported disbursements for FY 1998 by $646,999 and
    increase FY 1999 disbursements by $308,040 to properly adjust Form SSA-4513
    reporting in appropriate FYs.

•   Instruct NY-OTDA to reduce FY 1998 recorded indirect total obligations by
    $1,250,255 and increase FY 1999 recorded indirect total obligations by $499,017 to
    properly reflect indirect costs as provided in the Central Office Cost Allocation Claim
    system.

•   Instruct NY-OTDA to take measures to improve Form SSA-4513 reporting accuracy
    by implementing a procedure of reconciling accumulated disbursements to Treasury
    reports containing funding balances and draw down activity.

•   Require NY-OTDA to establish inventory control over IWS/LAN equipment in
    accordance with 20 Code of Federal Regulations §§ 404.1628 and 416.1028.

SA AND SSA COMMENTS
We received NY-OTDA’s comments dated March 21, 2003. NY-OTDA partially
concurred with our recommendations and provided comments which, in part, disagreed
with our findings. A visit was scheduled for April 21, 2003, to meet with NY-OTDA and
NY-DDD officials to substantiate the NY-OTDA comments and to determine whether
report revisions were warranted. However, due to audit coordination problems between
SSA and the State of New York on a separate audit issue, NY-OTDA would not agree to
a follow-up meeting. Nevertheless, we advised NY-OTDA that we would issue our final
report and would be available to discuss their comments at a later date. Starting on
page 11 of the report, we have incorporated comments by NY-OTDA relevant to our
recommendations where disagreement was expressed and have also revised our
recommendations where we deemed necessary. Due to the length of the NY-OTDA
comments, they are not attached to the report. However, the full text of the comments
can be obtained upon written request to the Office of the Inspector General, Social
Security Administration, Suite 300, Altmeyer Building, 6401 Security Boulevard,
Woodlawn, Maryland 21235. The Regional Commissioner’s comments are included as
Appendix D.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                         iii
                                                                    Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

    REPORTING PRACTICES NOT IN COMPLIANCE WITH POMS ....................4

    OBLIGATIONS REPORTED IN THE WRONG FY ............................................8

    REPORTED INDIRECT COSTS INCORRECTLY STATED ..............................9

    SIGNIFICANT DISBURSEMENT OMITTED FROM THE
    FORM SSA-4513 REPORT ..............................................................................9

    IWS/LAN EQUIPMENT NOT INCLUDED IN NY-DDD INVENTORY ..............10

CONCLUSIONS AND RECOMMENDATIONS ....................................................11


APPENDICES

APPENDIX A – New York Disability Determination Division Reported/Allowed

APPENDIX B – New York Disability Determination Division Obligations
             Reported/Allowed

APPENDIX C - Questioned Costs

APPENDIX D - Agency Comments

APPENDIX E - OIG Contacts and Staff Acknowledgments




Administrative Costs Claimed by the New York DDD (A-15-00-20053)
                                                                   Acronyms
Act                   Social Security Act
ASAP                  Automated Standard Application for Payments System
CE                    Consultative Examinations
CFR                   Code of Federal Regulations
CMIA                  Cash Management Improvement Act
COCAC                 Central Office Cost Allocation Claim
DDS                   Disability Determination Services
DI                    Disability Insurance
Form SSA-4513         State Agency Report of Obligations for SSA Disability Programs
FFY                   Federal Fiscal Year
FY                    Fiscal Year
IWS/LAN               Intelligent Workstation/Local Area Network
MER                   Medical Evidence of Record
NY-DDD                New York Disability Determination Division
NY-OSC                New York Office of the State Comptroller
NY-OTDA               New York Office of Temporary and Disability Assistance
ODO                   Office of Disability Operations
OIG                   Office of the Inspector General
OMB                   Office of Management and Budget
POMS                  Program Operations Manual System
QER                   Quarterly Expenditure Report
SA                    State Agency
SSA                   Social Security Administration
SSI                   Supplemental Security Income
Treasury              U.S. Department of the Treasury




Administrative Costs Claimed by the New York DDD (A-15-00-20053)
                                                                   Introduction
OBJECTIVES
The objectives of our audit of the New York Disability Determination Division (NY-DDD)
were to:

  •     evaluate internal controls over the accounting and reporting of the administrative
       costs claimed, as well as the draw down of Social Security Administration (SSA)
       funds;

  •    determine whether costs claimed on the State Agency Report of Obligations for
       SSA Disability Programs (Form SSA-4513) for the period October 1, 1997 through
       September 30, 1999, were allowable and properly allocated; and

  •    determine if the aggregate of the SSA funds drawn down agreed with total
       authorized expenditures of the NY-DDD for the Fiscal Years (FY) 1998 through
       1999.

BACKGROUND
The Disability Insurance (DI) program established under title II of the Social Security Act
(Act) is designed to provide benefits to wage earners and their families in the event the
wage earner becomes disabled. The Supplemental Security Income (SSI) program (title
XVI of the Act) provides a nationally uniform program of income to financially needy
individuals who are aged, blind and/or disabled.

SSA is primarily responsible for implementing the general policies governing the
development of the disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by an agency in each State or other
responsible jurisdiction according to Federal regulations. In carrying out its obligation,
each State agency (SA) is responsible for determining claimants’ disabilities and
ensuring that adequate evidence is available to support its determinations. To assist in
making proper disability determinations, each SA is authorized by SSA to purchase
medical examinations, x-rays and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources.

SSA pays the SA for 100 percent of allowable expenditures. Each year, SSA approves
the SA’s Disability Determination Services’ (DDS) budget. Once approved, the SA
withdraws Federal funds through the U.S. Department of the Treasury’s (Treasury)
Automated Standard Application for Payments System (ASAP) for this purpose. At the
end of each quarter of the Federal FY, each SA submits to SSA a Form SSA-4513 to
account for program disbursements and unliquidated obligations.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                             1
Cash drawn from the Treasury to pay for program expenditures is to be drawn according
to Federal regulations1 and in accordance with intergovernmental agreements entered
into by Treasury and States under the authority of the Cash Management Improvement
Act of 1990 (CMIA).2 An advance or reimbursement for costs under the program must
be made according to the Office of Management and Budget (OMB) Circular A-87, Cost
Principles for State, Local and Indian Tribal Governments.

NY-DDD financial reporting functions are primarily the responsibility of the New York
Office of Temporary and Disability Assistance (NY-OTDA). Indirect costs are distributed
according to a cost allocation plan from the New York Office of Children and Family
Services, which is approved by the Department of Health and Human Services.

NY-DDD maintains eight locations and is a component within the NY-OTDA. NY-DDD
also conducts work other than processing SSA disability determinations. SSA
authorized a budget of $281,397,817 for disability determinations for the audited
FYs 1998 and 1999.

SCOPE AND METHODOLOGY
To accomplish the audit objectives, we obtained sufficient evidence to evaluate the
financial transactions to determine whether they are allowable under OMB Circular A-87
and appropriate as defined by SSA's Program Operations Manual System (POMS).
Furthermore, we:

•     reviewed applicable Federal regulations, pertinent parts of the POMS DI 39500 “DDS
      Fiscal and Administrative Management” and other instructions pertaining to
      administrative costs incurred by and the draw down of SSA funds covered by the
      CMIA agreement;

•     interviewed NY-DDD personnel, New York’s contracted single audit Certified Public
      Accounting firm, NY-OTDA personnel, NY-Office of the State Comptroller (NY-OSC)
      personnel, and SSA's staff at the New York Regional Office and the Office of
      Disability at Headquarters;

•     reviewed NY-DDD general policies and procedures for administering the disability
      programs;

•     reviewed and tested internal controls regarding accounting and financial reporting,
      and cash management activities;
1
    31 Code of Federal Regulations (CFR) § 205.
2
    Public Law No. 101-453.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                            2
•   performed an examination of the administrative expenditures (personnel, medical
    service, indirect and all other non-personnel costs) incurred and claimed by NY-DDD
    for the period October 1, 1997 through September 30, 1999;

•   reconciled the official State accounting records to the administrative costs reported by
    NY-DDD to SSA on the Form SSA-4513 report for the period October 1, 1997
    through September 30, 1999; and

•   compared the amount of SSA funds drawn for support of program operations to the
    expenditures reported on the Form SSA-4513.

We tested documents supporting the $281,397,817 of costs claimed by NY-DDD for the
period October 1, 1997 through September 30, 1999, as reported to SSA as of
December 31, 1999. However, we expanded our field work until August 2002 to analyze
subsequent financial activities affecting these FYs, as reported through June 30, 2002,
and related reporting practices by NY-OTDA.

We conducted our audit in accordance with generally accepted government auditing
standards. The field work was conducted from August 2000 through August 2002 at NY-
OTDA and the NY-DDD in Albany, New York, and at SSA Headquarters in
Baltimore, Maryland.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                          3
                                                       Results of Review
NY-DDD claimed total obligated costs of $281,397,817 million for the 2 FYs under audit
as of December 31, 1999. The results of our substantive testing disclosed that in
general, claim amounts reported as disbursed were allowable and properly allocated.
However, our review of reporting practices disclosed that NY-DDD could not support
unliquidated amounts reported on the Form SSA-4513s. We determined NY-OTDA’s
reporting of obligations only served to misstate reported obligations, giving the
appearance that NY-DDD was within its approved cumulative budget authorization when
in FY 1998 obligations exceeded budget authorization by $2.2 million. We further
determined that this practice resulted in a lost opportunity cost to NY-DDD to fully
recover all reported reimbursable costs for FY 1998 incurred under SSA’s disability
programs. While similar reporting concerns occurred for FY 1999 also, NY-DDD
remained within the SSA authorized budget. In FY 1999, this practice earmarked funds
as being obligated when they should have been de-obligated.

Our audit also disclosed conditions which require: (i) reclassifying certain disbursements
in appropriate FYs, (ii) correcting obligation amounts reported for indirect costs,
(iii) instituting additional controls to ensure disbursements are reported accurately, and
(iv) maintaining inventory controls over SSA provided intelligent workstation (IWS)/local
area network (LAN) equipment.

REPORTING PRACTICES NOT IN COMPLIANCE WITH POMS
NY-OTDA did not comply with POMS procedures for reporting obligations. NY-OTDA
only maintained accounting records on a cash basis and did not have data necessary to
report accurately on its actual unliquidated obligations. We determined that the
Form SSA-4513 reports were presented as though the NY-DDD remained within its
allowed budget. In addition, amounts reported as unliquidated obligations for medical
costs and non-personnel costs were determined as invalid. Financial controls were not
in place to detect reporting inconsistencies.

POMS3 procedures provide specific detailed instructions for State agencies or other
responsible jurisdictions to summarize various categories of cost as well as report
whether these costs have been disbursed/liquidated or unliquidated. POMS4 procedures
describe obligations as to their definition, what supports their validity and when they are
to be reported. SSA requires reporting of this information in appropriate columns on the
Form SSA-4513 report.

POMS DI 39506.210 provides the following instructions for reporting disbursements,
unliquidated obligations and total obligations:

3
    POMS DI 39506.210C.
4
    POMS DI 39506.200B and DI 39506.201.



Administrative Costs Claimed by the New York DDD (A-15-00-20053)                          4
        1. Column A (Disbursements)
        Enter cumulative disbursements through the ending date of the report
        period for each category listed.
        2. Column B (Unliquidated Obligations)
        Enter amounts of all unliquidated obligations as of the ending date of the
        report period for each category listed.
        3. Column C (Total Obligations)
        The total cumulative obligations should reflect the sum of column A
        (Disbursements) and column B (Unliquidated Obligations) as of the ending
        date of the report period.

With regard to prior year obligations, the status of unliquidated obligations--including an
explanation of why unliquidated obligations remain--should be given in a narrative
statement accompanying the report.5 Also included in the report is the amount of
cumulative obligations authorized and approved by the Regional Commissioner.
Specific instructions to prepare the Form SSA-4513 report are located in POMS
DI39506.210.

The report is an effective tool for States or other responsible jurisdictions to observe6 the
quarterly cumulative rate of expenditures and control its rate throughout the year and to
take precaution against over-expenditure of its budget for disability program operations.
If it becomes clear that an agency will not need as much obligation authority as
authorized, it will be reduced. However, such reduction will be made only after advance
consultation between the SSA regional office and the SA.7

OBLIGATIONS REPORTED ON FORM SSA-4513 REPORT WERE
NOT SUPPORTED
NY-OTDA reported amounts on the Form SSA-4513 reports, which could not be
supported. We requested the support for the Forms SSA-4513 on multiple occasions,
but the support was not forthcoming. Through further analysis, we concluded that these
amounts generally were not logical. For example, for FY 1998, amounts reported as
unliquidated obligations for Medical Evidence of Records (MER) necessary to making
determinations of applicant’s eligibility remained relatively unchanged at $975,961 from
January 2000. Unliquidated obligations for MERS for FY 1999 were reported at $3,840
and again remain unchanged through June 2002. We believe NY-OTDA used Column B
to reconcile what they reported as Total Obligations. This was done by comparing the
disbursements column to the total obligation column. If the disbursements were greater
than total obligations, a negative amount8 was inserted into the unliquidated obligation
5
  POMS DI 39506.203B.
6
  POMS DI 39506.100A.3.
7
  POMS DI 39506.100A.5.
8
  We requested a definition of negative unliquidated obligations and was not provided a reasonable
explanation. Nor could we envision a situation in which a negative obligation balance would occur.



Administrative Costs Claimed by the New York DDD (A-15-00-20053)                                     5
column, if disbursements were lower than total obligations, a positive number was
entered into the unliquidated obligation column as shown for example on the
Form SSA-4513 below.




We were not provided a reason for why reports were prepared in this manner. We
determined that to reflect the true status of valid obligations for this report period,
adjustments were needed to eliminate both negative and positive unliquidated
obligations in Column B of the Form SSA-4513 report. Our recalculations disclosed that
NY-OTDA‘s reported obligations now exceeded its budget authority by $2,217,646 as on
the next page.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                      6
            REPORTING ITEMS               DISBURSEMENTS UNLIQUIDATED                TOTAL
                                                        OBLIGATIONS               OBLIGATIONS

    Personnel Service Costs                 $     79,613,976       $          - $     79,613,976
    Medical Costs                                 34,234,537                          34,234,537
     Consultative Examinations                     30,678,008                 -       30,678,008
        Disability Insurance (DI) Claims            8,698,565                 -        8,698,565
        Supplemental Security Income               17,208,282                 -       17,208,282
    (SSI) Claims
        Concurrent DI/SSI Claims                    4,771,161                 -        4,771,161
     Medical Evidence of Records                    3,556,529                          3,556,529
        DI Claims                                   1,432,500                          1,432,500
        SSI Claims                                  1,490,030                          1,490,030
        Concurrent DI/SSI Claims                      633,999                            633,999
    Indirect Costs                                          -          9,908,469       9,908,469
    All Other Non-personnel Costs                  16,090,627                  -      16,090,627
    Total                                     $   129,939,140   $      9,908,469 $   139,847,609
    Cumulative Quarterly Obligation Authorization                                $   137,629,963
    Obligations Exceeding Authorization                                          $     2,217,646


We believe NY-OTDA’s reporting of obligations violated established regulations and
policies between SSA and the State of New York requiring compliance with written
guidelines.

We determined that similar adjustments were required for FY 1999. We are
recommending appropriate adjustments as detailed in Appendices A and B to NY-DDD’s
Form SSA-4513 reports for both FYs audited as of the reporting period ended
December 31, 1999.

ADDITIONAL FUNDING COULD BE REQUESTED

Our review of applicable regulations including OMB guidance disclosed that funding
might still be available to meet shortfalls.

OMB Circular A-34,9 addresses the availability of funding when the FY has ended as
follows:

       “Expired phase is the time period when the appropriations are no longer
       allowed to incur new obligations but are still available to pay old bills.
       During this phase, the appropriation is available to liquidate valid
       obligations incurred during the unexpired phase. You may make
       adjustments to increase or decrease valid obligation incurred during the
9
 OMB Circular No. A-34 (2000), Section 11 – TERMS AND CONCEPTS, 11.6 “What are the phases of
availability for annual and multi-year appropriations?”


Administrative Costs Claimed by the New York DDD (A-15-00-20053)                                   7
        unexpired period but not previously reported. Normally this phase lasts for
        five fiscal years except when a law specifically lengthens this phase.

        Annual appropriations expire at the beginning of the subsequent fiscal
        year, unless otherwise specified by law."

OBLIGATIONS REPORTED IN THE WRONG FY
During our examination of administrative expenditures incurred and claimed for the
period under audit, we identified $985,960 in rental expenditures funded using prior year
expired funds.

31 U.S.C. §1502 (a) provides that:

        “The balance of an appropriation or fund limited for obligation to a definite
        period is available only for payment of expenses properly incurred during
        the period of availability…the appropriation or fund is not available for
        expenditure for a period beyond the period otherwise authorized by law.”

Funds provided under titles II and XVI of the Act for DDSs are taken out of SSA’s
Limitation and Administrative Expense account and are to be obligated within each FY
period.

For the 2 FYs under audit, we randomly sampled each of the reported expenditure
categories identified on the Form SSA-4513 reports. While for the most part, reported
expenditures were supported, allowable, and properly allocated, we conducted a more
detailed review10 of office rental costs since accounting and reporting problems had been
identified in a prior administrative cost review conducted by our office. Our review
identified 24 transactions totaling $985,960 incurred in FYs 1999 and 2000, yet
subsequently disbursed from and accounted for in FYs 1998 and 1999, respectively.

At the end of FYs 1998 and 1999, the Office of Disability Operations (ODO) provided
authorization and guidance to the New York Regional Office to provide advanced funding
to include upcoming rental costs. NY-DDD in turn, used $646,999 of expired 1998
funding for FY 1999 rental costs. These same financial events occurred using $338,959
in FY 1999 funding for FY 2000 rental costs. To make proper adjustment of funds and
report obligations in accordance with Federal regulations, the following adjustments
should be made.

10
  Office of the Inspector General Audit Report entitled, Audit of the Administrative Costs Claimed by the
Oregon Disability Determination Services – CIN A-15-99-52021 issued February 2001.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                                            8
                                       Effect on             Effect on           Effect on
        Adjustment Required         FY 1998 Funding      FY 1999 Funding      FY 2000 Funding
    1. FY 1999 Cost funded from
       FY 1998 Funds, should be
       reversed.                            ($646,999)             $646,999
    2. FY 2000 Cost funded from
       FY 1999 Funds, should be
       reversed.                                               ($338,959)            $338,959
    Net Rental Adjustments by FY            ($646,999)          $308,040             $338,959


REPORTED INDIRECT COSTS INCORRECTLY STATED
NY-OTDA used the Central Office Cost Allocation Claim (COCAC) system to accumulate
indirect costs for reimbursement by Federal agencies using its services.

Our work was limited to tracing totals from COCAC to the Form SSA-4513 Report for the
2 FYs under review. Our comparison of COCAC data to reported amounts disclosed
that indirect costs for the 2 years were overstated by $751,238 as follows:

                    COCAC vs Form SSA-4513 Total Obligations
           FY          COCAC        Form SSA-4513        Difference
          1998         $ 8,658,214      $ 9,908,469        $ 1,250,255
          1999          $ 7,941,836     $ 7,442,819       $ (499,017)
           Total       $ 16,600,050    $ 17,351,288        $ 751,238

Adjustments to correct the overstatement and understatement of indirect costs are
detailed in Appendices A and B.

SIGNIFICANT DISBURSEMENT OMITTED FROM FORM SSA-4513
REPORT
Our review of the NY-OTDA cash management practices disclosed that drawdowns
exceeded reported disbursements by $2,377,842. Our review disclosed an inadvertent
omittance involving a draw down to reimburse NY-DDD for indirect costs. Reporting
disbursement activity and executing drawdowns are performed by separate entities, the
NY-OTDA and NY-OSC. Controls can be improved by recognizing the need for both
entities to reconcile accumulated disbursement activity to ensure all transactions are
accounted for and properly reported.

Functions related to accounting and reporting for disbursements were performed by
NY-OTDA’s Budget, Finance, and Data Management. Drawing down funds from
Treasury were performed by the NY-OSC. NY-OTDA’s procedures include preparation
of journal vouchers to fund the State’s reimbursement for indirect costs and to request
the NY-OSC to execute the required draw down. NY-OTDA also accounts for these
journal vouchers in accumulating disbursement totals for reporting on the
Form SSA-4513 report.


Administrative Costs Claimed by the New York DDD (A-15-00-20053)                                9
While necessary controls to ensure separation of duties were in place, NY-OTDA had
not adopted a control procedure to ensure reconciliation of reported disbursement totals
to total drawn down amounts maintained on Treasury reports by the NY-OSC. As a
result, there were inadequate controls in place to ensure the accuracy of reported
transactions.

Our audit tests call for determining whether State agencies or other responsible
jurisdictions only draw down funds in order to meet immediate funding needs in
accordance with applicable Federal Regulations.11 Our comparison of Treasury’s ASAP
to the reported disbursements on the Form SSA-4513 identified an apparent excess over
draw. We determined that FY 1998 draw downs exceeded “reported” disbursements by
$2,377,842.

Our review of disbursement activity extended past the audit cut off-date to ensure cash
management activities were addressed during the period of our field work.12 We
identified a $3 million draw down made on March 21, 2001, on the ASAP Account
Statement Inquiry. This amount was in excess of reimbursable disbursements reported
on the Form SSA-4513 report covering that period. We reported the discrepancy to
NY-OTDA. NY-OTDA took immediate action to research its files and provided us
documentation showing that a disbursement reporting omission had occurred on the
Form SSA-4513 and was later corrected. We discussed with NY-OTDA and the
NY-OSC a recommendation that NY-OTDA be provided with current information to
ensure that all draw down activity reconciles with reported disbursements on the
Form SSA-4513 report.

IWS/LAN EQUIPMENT NOT INCLUDED IN NY-DDD INVENTORY

NY-DDD did not record IWS/LAN equipment on its Fixed Asset Tracking System.
Federal regulations13 provide for the State to have title to equipment purchased for
disability program purposes. The State is also responsible for maintaining all such
equipment, including identifying the equipment by labeling and inventory.

We were able to verify that the IWS/LAN equipment was identified and properly located
at various offices. The staff stated that there were plans to put the value of the IWS/LAN
equipment into FATS, but system compatibility problems have hindered its completion.

11
   31 CFR §205.11(b) states “ A State and a Federal Program Agency must limit the amount of funds
transferred to the minimum required to meet a State’s actual and immediate cash needs.”
12
   We reviewed disbursement and draw down activity as of the end of our field work in August 2002.
13
   20 CFR §§ 404.1628 and 416.1028.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                                     10
                                                      Conclusions and
                                                     Recommendations
We concluded the NY-DDD generally maintained documentation to support claimed
disbursements, and for the most part, such disbursements were both allowable and
properly allocated between FY appropriations. However, efforts need to be focused on
eliminating deviations in reporting practices and improving certain accounting controls.
We recommend the Regional Commissioner:

1. Require NY-OTDA to follow specific guidelines in the POMS DI 38506.210 for
   reporting the status of all unliquidated obligations. Accordingly, eliminate
   negative unliquidated obligation entries totaling $3,316,665 ($3,193,607 in
   FY 1998 and $123,058 in FY 1999) from the SSA Form 4513 reports for reporting
   quarter ended December 31, 1999, and report zeros in their place.

NY-OTDA’s COMMENTS

NY-OTDA partially concurred with our recommendations as synopsized below:

New York has confidence in the accuracy of unliquidated obligations reported on SSA
Form-4513 (Quarterly Expenditure Report). Negative unliquidated obligations during the
audit periods were primarily result of the method for reporting certain indirect costs and
cost coding errors in expenditure processing.

The obligations for the majority of costs reported on the Quarterly Expenditure Report
(QER) are based on actual vouchers costs processed one of the following: DDD’s fiscal
processing system, NY-OTDA’s purchasing system, and/or NY-OTDA’s Accounts
payable process.

Disbursements reported on the QER are tied to expenditure information from the
NY-OSC that reflects all payments made by New York State. Unliquidated obligations
are, therefore, correctly, the difference between actual costs which constitute reported
obligations and the amounts officially disbursed according to New York’s fiscal regulator
that are reported as disbursements (also referred to as expenditures).

New York accounting structure, with thousand of separate fiscal transactions, does not
facilitate tracking outstanding individual unliquidated obligations, which would require
significantly more time and staff resources and has the potential to result in inaccurate
reporting.

Unliquidated obligations are, therefore, the difference between estimated obligations and
actual expenditures. Once all costs have been processed post-year, obligations are
adjusted to disbursements.



Administrative Costs Claimed by the New York DDD (A-15-00-20053)                            11
As recommended by the Office of the Inspector General (OIG), New York will expand
explanations in the QER to address outstanding unliquidated obligations.

New York is acting to eliminate or minimize unliquidated obligations. Negative
unliquidated obligations during the audit periods were primarily the result of the method
for reporting indirect costs and coding errors in expenditure processing. Other causes
have been resolved since the 12/00 QER were issued.

REGIONAL COMMISSIONER’S COMMENTS

The Regional Commissioner concurred with our recommendation.

OIG RESPONSE

The Form SSA-4513 report referred to as the “QER” in New York’s comments is a
misnomer. As stated in POMS, the report is titled the “State Agency Report of
Obligations for SSA Disability Programs.”

POMS DI 39506.200B and DI 39506.201 define the terms under which obligations are
established and reported. These POMS sections require specificity in reporting
obligation information. It remains unclear to us how NY-OTDA can determine what total
costs are if it does not know the amount of unliquidated transactions needed to arrive at
total costs.

NY-OTDA also provided additional commentary regarding vouchered costs and
unliquidated obligations; however, we were unable to substantiate those comments. We
were also unable to document certain adjustments for indirect costs, and
reclassifications of consultative examinations (CE) and MERs which, as explained to us,
resulted in negative adjustments that NY-OTDA will take action to minimize or eliminate.

2. Require NY-OTDA to eliminate unsupported positive invalid obligations from
   Form SSA-4513 Report and decrease budget authority to recognize obligations
   no longer valid in the amount of $4,399,192 ($975,961 in FY 1998 and $3,423,231
   in FY 1999).

NY-OTDA’S COMMENTS

NY-OTDA did not concur with our recommendation; this issue is discussed in
Recommendation #3.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                        12
REGIONAL COMMISSIONER’S COMMENTS

The Regional Commissioner concurred with our recommendation.

OIG RESPONSE

See Recommendation 3 for our response.

3. Require NY-OTDA to discontinue the use of unsupported forced obligations in
   preparing the Form SSA-4513 report.

NY-OTDA’S COMMENTS

NY-OTDA did not concur with our recommendations as synopsized below:

NY-OTDA completed a reconciliation of fringe benefits for FY 1998. Documentation
supports the obligations reported and transactions are underway to expend the
unliquidated obligation of $322,077.

MER cost is based on processing of vouchers through the DDS’s fiscal processing
system. Obligations are based on vouchers processed for payment and sent to the
NY-OSC for payment. The amounts reported for Federal Fiscal Year (FFY) 1998 and
FFY 1999 are based on the end of year report from the Fiscal Processing System.
Accordingly, these obligations are the actual costs of MER vouchers that will not change
after the end of the FY. For FFY 1998, MER vouchers totaled $4,532,490.

It appears that MER disbursements were erroneously reported as CE disbursements,
reflected as CE overspending. The reporting error is being corrected.

The OIG conclusion that the figure reported in Column B of the Form SSA-4513
(unliquidated obligations) is the result of the difference between total obligations and
disbursements is indeed correct. The obligation from the DDD fiscal system is the
controlling factor. New York is not forcing the unliquidated amount to match invalid
obligations.

REGIONAL COMMISSIONER’S COMMENTS

The Regional Commissioner concurred with our recommendation.

OIG RESPONSE

Again, without being provided documentation, we are unable to document NY-OTDA
actions to reconcile fringe benefits. Nor can we confirm that $322,077 in unliquidated
obligations is based on legitimate obligations which had been incurred within FY 1998.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                           13
We are also unable to confirm that the Fiscal Processing System can be associated with
unliquidated obligation information reported on the From SSA-4513 report. Based on
OTDA’s explanation, it’s unclear how the unliquidated amounts and resulting total
obligation amounts were not reduced by cancellations which normally occur after a
FY ends.

The information provided does not explain how the lapse time from which certain
estimated unliquidated obligations can continue to be reported after the FY ends. This
practice is a clear violation of POMS14 in that such funds remain available only for
obligations were clearly created and documented as incurred during the FY from which
the appropriation was established. The need to report all available funds as obligated for
extended periods of time without a supporting record system to substantiate such
obligations, we conclude is not appropriate. NY-DDD reporting of invalid unliquidated
obligations also occurred with FY 1995 funds when the NY-OTDA had reported Total
Obligations of over $113 million starting in November 1995 and ending in April 2000,
then reporting total obligations exceeding $108 million in the final reporting quarter
ending June 30, 2000. This resulted in almost $5 million in funding authority which could
have been used for an earlier SSA program need.

In regards to recommendation #3, we agree that the term “forced” could be somewhat
misleading and have revised our recommendation accordingly as shown on page ii of the
Executive Summary to this report.

4. Require NY-OTDA to implement a record keeping system, which would provide
   for accumulating and updating valid obligations for MERS, CEs, and all other
   non-personnel costs.

NY-OTDA’S COMMENTS

NY-OTDA did not concur with our recommendations as synopsized below:

As previously stated by the NY-OTDA, MER cost is based on processing of vouchers
through DDS’s Fiscal Processing System. Obligations are based on vouchers
processed for payment and sent to the NY-OSC for payment. The amounts reported for
FFY 1998 and FFY 1999 are based on data from the Fiscal Processing System.

Non-personnel costs are accumulated and tracked by various systems and methods.
For example:

     Applicant travel vouchers sent for payment are tracked by an internal DDD
      automated system in the Processing Unit.

14
     POMS DI 39506.200B.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                        14
     Items acquired by purchase request/purchase order, such as furniture, equipment,
      electronic data processing and building renovations are tracked by the NY-OTDA
      Purchasing System.

     Billing and vouchers from contractors for services such as transcription, medical
      record imaging, medical peer review, parking, security guards and interpreters are
      verified and reconciled by DDD and sent to the NY-OTDA for payment. These costs
      have been routinely tracked for many years on spreadsheet programs (currently
      Excel programs) developed and maintained by DDD Central Office staff.

     NY-OTDA maintains systems and records for vouchers and chargebacks received
      directly by the parent agency such as commercial telephone service, Office of
      General Services telecommunications costs, rent and office maintenance.

Although the following NY-OTDA comments were included under Recommendation #1,
we believe that they relate this recommendation also:

Some cost items such as supplies, represent thousands of individual orders and
requisitions from agency stores placed by each DDD region and the Central Office
during the course of a FY. Obligations on the QER are estimates based on past
experience, applying cost per case experience from prior periods to project dispositions.
Actual disbursement activity occurs many months after the end of a FY as orders and
chargebacks clear the pipeline. DDD does not have the system to determine the exact
amount of outstanding unliquidated orders and requisitions in order to determine the
exact amount of outstanding unliquidated obligations at any one time. DDD and NY-
OTDA are able, at some point post-FY, to adjust estimated obligations consistent with
expenditures. The adjustment can be made when no significant disbursement activity
has occurred for a reasonable amount of time post-FY, based on past experience. The
obligation is then adjusted to match the disbursement.

REGIONAL COMMISSIONER’S COMMENTS

The Regional Commissioner concurred with our recommendation.

OIG RESPONSE

We continue to believe that a record system meeting POMS15 requirements which is
reconcilable with the Form SSA-4513 report is not available and auditable.

5. Coordinate a decision with the Office of Disability to determine the availability
   of funding for those obligations currently unfunded.

15
     POMS DI 39506.200B.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                         15
NY-OTDA’S COMMENTS

NY-OTDA did not concur with our recommendations as synopsized below:

NY-DDD assessment of obligations and funding in FY 1998 and 1999 indicates that
sufficient budget authority exists.

OIG’s identification of additional funding needs is primarily related to:

      Overstating the amount of personal funding required, by including personnel-
       related indirect cost disbursements in total obligations. These disbursements
       should be shifted to the indirect cost category.

      Failure to reduce indirect cost obligations to the COCAC claim amounts.

      Shifting SSA approved forward funding costs from the year allocation in which
       they were funded to the following year.

NY-OTDA asserted under Recommendation #3, that it still has $643,315 in available
(unused) budgetary authority:

                     NY-OTDA Recalculation of FY 1998 Obligations

                          Personnel Costs               $ 78,412,030
                          Medical Costs                   34,262,603
                          CE                              29,730,113
                          MER                              4,532,490
                          Indirect Costs                   8,658,214
                          Other Costs                     15,653,801
                          Total Costs                   $136,986,648
                          Allocation                    $137,629,963
                          Difference                    $    643,315

REGIONAL COMMISSIONER’S COMMENTS

The Regional Commissioner did not concur with our recommendation.

Recommendation Number 5, which requires that the New York Regional Office
coordinate with the Office of Disability to determine the availability of funding for those
obligations currently unfunded, presumes that the obligations as recalculated by the
auditors reflect FY 1998 actual obligations. Based on FY 1995, FY 1996, and FY 1997
data, which is maintained in the Regional Office, we project that the “personal service
costs” for FY 1998 will not change, that the excess “personal service costs”
disbursements will satisfy the unliquidated obligation for “indirect costs,” and that the
State will deobligate some of the costs that are now obligated for FY 1998 “indirect
costs.” To assume otherwise would be contrary to historical patterns.



Administrative Costs Claimed by the New York DDD (A-15-00-20053)                              16
OIG RESPONSE

Since both NY-OTDA and the Regional Commissioner disagree with our
recommendation and believe that there will be sufficient funding to meet final
accumulated disbursements, we are therefore revising our recommendation as now
provided on page iii of the Executive Summary of our report as follows:

Revised Recommendation 5.

   Obtain necessary documentation from the NY-OTDA to support that funding
   will be available to meet final expenditure amounts for FY 1998.

6. Instruct NY-OTDA to reduce reported disbursements for FY 1998 by $646,999
   and increase FY 1999 disbursements by $308,040 to properly adjust
   Form SSA-4513 reporting in appropriate FYs.

NY-OTDA’S COMMENTS

NY-OTDA partially concurs with our recommendations as synopsized below:

OIG states that SSA ODO authorized the SSA New York Regional Office to provide
advanced funding (forward funding) in each FY to support the rent costs. The budget
authority for each year provided for forward funding of costs.

NY-DDD and NY-OTDA followed SSA directives. The issue of the “proper” year for
reporting obligations and charging of costs correctly falls between OIG and the SSA
Disability Program, not New York State. Unless SSA adjusts the allocation amount in
each FY to remove forward funding, properly reported disbursements should not be
changed in fiscal reports for FFY 1998, 1999, or 2000.

REGIONAL COMMISSIONER’S COMMENTS

The Regional Commissioner concurred with our recommendation.

OIG RESPONSE

Our recommendation requests the Regional Commissioner take necessary action to
make the audit adjustment mentioned in Recommendation #6. We would conclude that
any necessary adjustments needed to the allocation would also be made.

7. Instruct NY-OTDA to reduce FY 1998 recorded indirect total obligations by
   $1,250,255 and increase FY 1999 recorded indirect total obligations by $499,017
   to properly reflect indirect costs as provided in the COCAC.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                      17
NY-OTDA AND REGIONAL COMMENTS

We have concurrence from both OTDA and the Regional Commissioner’s office.

8. Instruct NY-OTDA to take measures to improve Form SSA-4513 reporting
   accuracy by implementing a procedure of reconciling accumulated
   disbursements to Treasury reports maintaining funding balances and draw
   down activity.

NY-OTDA AND REGIONAL COMMENTS

We have concurrence from both the NY-OTDA and the Regional Commissioner’s office.

9. Require NY-OTDA to establish inventory control over IWS/LAN equipment in
   accordance with 20 CFR §§ 404.1628 and 416.1028.

NY-OTDA’S COMMENTS

NY-OTDA concurred with our recommendations but disagreed with the basis of the
finding.

REGIONAL COMMISSIONER’S COMMENTS

The Regional Commissioner concurred with our recommendation.

OIG RESPONSE

We have taken NY-OTDA’s comments into consideration and modified the text of the
report to recognize the existing tracking system and the need to incorporate IWS/LAN
equipment into the system.




Administrative Costs Claimed by the New York DDD (A-15-00-20053)                       18
Appendices
                             Appendix A
New York Disability Determination
Division Reported/Allowed
                                                                                                                                                               Appendix A

NEW YORK DISABILITY DETERMINATION DIVISION OBLIGATIONS
REPORTED/ALLOWED

                                                                                            Fiscal Year (FY) 1998
                                                                                                                                                                                            Total
                                                        Unliquidated Obligations                                                        Disbursements
                                                                                                                                                                                         Obligations
                                     Personnel      Medical       Indirect      All Other       Total       Personnel        Medical      Indirect       All Other        Total      Disbursements

As Reported by State Agency         $(1,675,218)                $9,908,469     $(645,124) $7,588,127        $79,613,976                     $0       $16,090,627     $95,704,603          $103,292,730

 Consultative Examination (CE)
   Disability Insurance (DI)                       $(253,078)                               $(253,078)                    $ 8,698,565                                $ 8,698,565           $ 8,445,487
   Supplemental Security                           $(440,289)                               $(440,289)                    $17,208,282                                $17,208,282           $16,767,993
      Income (SSI)
   Concurrent SSI/DI                               $(179,898)                               $(179,898)                    $ 4,771,161                                $ 4,771,161           $ 4,591,263
 Medical Evidence of Record
    (MER)
   DI                                              $ 448,070                                $ 448,070                     $ 1,432,500                                $ 1,432,500           $ 1,880,570
   SSI                                             $ 418,060                                $ 418,060                     $ 1,490,030                                $ 1,490,030           $ 1,908,090
   Concurrent SSI/DI                               $ 109,831                                $ 109,831                     $ 633,999                                  $ 633,999             $ 743,830

 Total Claimed by State Agency $(1,675,218) $ 102,696 $9,908,469               $(645,124) $7,690,823        $79,613,976 $34,234,537         $0       $16,090,627     $129,939,140         $137,629,963
1. Reduce amounts reported as
unliquidated obligations for
MERs and CEs determined to
be invalid.                                 $ (975,961)                                     $   (975,961)                                                                            $       (975,961)

2. Eliminate amounts identified
as negative unliquidated used
to force reporting balances and
understate total obligations.   $ 1,675,218 $ 873,265                          $ 645,124    $   3,193,607                                                                            $       3,193,607

3. Reduce FY 1998
disbursement by FY 1999 rental
costs inappropriately charged.                                                                                                                       $   (646,999)   $   (646,999)   $       (646,999)

4. Reduce FY 1998 indirect cost
obligations in order to reconcile
with Central Office Cost
Allocation Claim system.                                        $(1,250,255)                $(1,250,255)                                                                             $     (1,250,255)

Reported Amounts per audit.              $0            $0       $ 8,658,214        $0       $ 8,658,214 $79,613,976 $34,234,537             $0       $ 15,443,628 $ 129,292,141 $         137,950,355


Administrative Costs Claimed by the New York DDD (A-15-00-20053)
                                                                   Appendix B
New York Disability Determination
Division Obligations Reported/Allowed




Administrative Costs Claimed by the New York DDD (A-15-00-20053)
                                                                                                                                                                     Appendix B

NEW YORK DISABILITY DETERMINATION DIVISION OBLIGATIONS
REPORTED/ALLOWED
                                                                                        Fiscal Year (FY) 1999
                                                                                                                                                                                                 Total
                                                      Unliquidated Obligations                                                      Disbursements
                                                                                                                                                                                              Obligations
                                   Personnel        Medical    Indirect     All Other       Total       Personnel        Medical        Indirect               All Other        Total     Disbursements

As Reported by State Agency       $8,459,675                  $7,442,819 $2,639,506     $18,542,000 $72,569,665                     $              0       $16,014,988     $ 88,584,653   $107,126,653

 Consultative Examination (CE)
   Disability Insurance (DI)                    $(123,058)                              $ (123,058)                   $ 8,332,577                                          $ 8,332,577    $ 8,209,519
   Supplemental Security                        $ 686,991                               $ 686,991                     $18,813,677                                          $ 18,813,677   $ 19,500,668
      Income (SSI)
   Concurrent SSI/DI                            $    92,894                             $    92,894                   $ 4,274,310                                          $ 4,274,310    $    4,367,204
 Medical Evidence of Record
     (MER)
   DI                                           $     1,300                             $     1,300                   $ 1,743,570                                          $ 1,743,570    $    1,744,870
   SSI                                          $     2,040                             $     2,040                   $ 2,148,300                                          $ 2,148,300    $    2,150,340
   Concurrent SSI/DI                            $       500                             $       500                   $ 668,100                                            $   668,100    $      668,600

 Total Claimed by State Agency $8,459,675       $ 660,667 $7,442,819 $2,639,506         $19,202,667 $72,569,665       $35,980,534   $                  0   $16,014,988     $124,565,187   $143,767,854
1. Reduce amounts reported as
unliquidated obligations for
MERs, CEs, and non-personnel
determined to be invalid.                       $ (783,725)                $(2,639,506) $ (3,423,231)                                                                                     $ (3,423,231)

2. Eliminate amounts identified
as negative unliquidated used
to force reporting balances and
understate total obligations.                   $ 123,058                               $   123,058                                                                                       $     123,058

3. Net increase FY 1999
disbursements by FY 1998 and
FY 1999 rental costs
adjustments.                                                                                                                                               $    308,040    $    308,040   $     308,040

4. Increase FY 1999 indirect
cost obligations in order to
reconcile with Central Office
Cost Allocation Claim system.                                 $ 499,017                 $   499,017                                                                                       $      499,017

Reported Amounts per Audit        $ 8,459,675         $0      $7,941,836        $0      $16,401,511     $72,569,665   $35,980,534         $0               $ 16,323,028 $ 124,873,227 $        141,254,738




Administrative Costs Claimed by the New York DDD (A-15-00-20053)
                                                                   Appendix C
Questioned Costs




Administrative Costs Claimed by the New York DDD (A-15-00-20053)
                                                                     Appendix C

QUESTIONED COSTS
                       Incorrect Fiscal Year (FY) Payments

         Invoice                 Amount                       Comments
Office Rent
8110333                            $1,157.00 FY 99 expense was charged to FY 98
8110355                              $666.67 FY 99 expense was charged to FY 98
8110363                             $625.31    FY 99 expense was charged to FY 98
8110325                          $25,192.74    FY 99 expense was charged to FY 98
8110326                           $1,272.00    FY 99 expense was charged to FY 98
8110327                           $1,366.08    FY 99 expense was charged to FY 98
8110329                         $188,121.50    FY 99 expense was charged to FY 98
8110396                         $188,121.50    FY 99 expense was charged to FY 98
8110383                          $56,087.28    FY 99 expense was charged to FY 98
8110435                          $84,486.83    FY 99 expense was charged to FY 98
8110361                           $1,950.00    FY 99 expense was charged to FY 98
8110362                          $59,609.67    FY 99 expense was charged to FY 98
8110336                          $38,343.07    FY 99 expense was charged to FY 98
   FY 98 Total                  $646,999.65

9110271                         $188,121.50    FY 00 expense was charged to FY 99
9110265                           $1,157.00    FY 00 expense was charged to FY 99
9110268                           $3,683.68    FY 00 expense was charged to FY 99
9110270                          $25,192.74    FY 00 expense was charged to FY 99
9110291                             $666.67    FY 00 expense was charged to FY 99
9110304                          $56,087.28    FY 00 expense was charged to FY 99
9110299                             $625.31    FY 00 expense was charged to FY 99
9110300                          $59,609.67    FY 00 expense was charged to FY 99
9110274                           $1,366.08    FY 00 expense was charged to FY 99
9110302                           $1,950.00    FY 00 expense was charged to FY 99
9110303                             $500.00    FY 00 expense was charged to FY 99
   FY 99 Total                  $338,959.93




Administrative Costs Claimed by the New York DDD (A-15-00-20053)
                                                                   Appendix D
Agency Comments




Administrative Costs Claimed by the New York DDD (A-15-00-20053)
                                                                                      Appendix D




                                        SOCIAL SECURITY
MEMORANDUM


Date:     February 4, 2003                                                       Refer To: S2D2G5

To:       Steven L. Schaeffer
          Assistant Inspector General
          for Audit

From:     Regional Commissioner
          New York

Subject   Audit of Administrative Costs Claimed by the New York Disability Determination Division
:         (A-15-00-20053)

          We welcome the opportunity to review the draft report representing the results of your audit of
          the administrative costs claimed by the New York (NY) Disability Determination Division
          (DDD) for fiscal years (FYs) 1998 through 1999.

          Based on your findings we agree with all of the conclusions and recommendations in the draft
          report with the exception of number 5. Recommendation number 5, which requires that the New
          York Regional Office coordinate with the Office of Disability to determine the availability of
          funding for those obligations currently unfunded, presumes that the obligations as recalculated
          by the auditors reflect FY 1998 actual obligations. Based on FY 1995, FY 1996 and FY 1997
          data, which is maintained in the Regional Office, we project that the "personnel service costs"
          obligations for FY 1998 will not change, that the excess "personnel service costs" disbursements
          will satisfy the unliquidated obligation for "indirect costs", and that the State will deobligate
          some of the costs that are now obligated for FY 1998 "indirect costs". To assume otherwise
          would be contrary to historical patterns.

          If members of your staff have any questions on this matter they should be directed to Gene Purk,
          (212) 264-7283 in the Center for Disability Programs.

                                    / s /
                                Beatrice M. Disman



          Administrative Costs Claimed by the New York DDD (A-15-00-20053)
                                                                   Appendix E
OIG Contacts and Acknowledgments
OIG Contacts

Frederick C. Nordhoff, Director, Financial Audit Division, (410) 966-6676

Carl Markowitz, Manager, Financial Audit Division

Acknowledgments
In addition to those named above:

  Sigmund Wisowaty, Senior Auditor

  Steven Sachs, Senior Auditor

  Annette DeRito, Writer/Editor




Administrative Costs Claimed by the New York DDD (A-15-00-20053)
                              DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board




Administrative Costs Claimed by the New York DDD (A-15-00-20053)
                 Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA, as well as
conducting investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to Congressional requests
for information, and also communicates OIG’s planned and current activities and their results to
the Commissioner and Congress.

                                    Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations,
legislation, and policy directives governing the administration of SSA’s programs; 2)
investigative procedures and techniques; and 3) legal implications and conclusions to
be drawn from audit and investigative material produced by the OIG. The Counsel’s
office also administers the civil monetary penalty program.


Administrative Costs Claimed by the New York DDD (A-15-00-20053)
